No, 20-553

 

In the
Supreme Court of the United States

Pennsylvania Voters Alliance, Stephanie Borowicz, Kristine Eng,
Theodore A. Dannerth, Eric Kroner, Eric Nelson, Daryl Metcalfe, Dawn
Wetzel Keefer, Russ Diamond, Chris Dush, Jim Gregory, Francis Ryan,

Michael Harvey, David Torres, Dasha Pruett,

Petitioner,
vs.

Centre County, Delaware County, and the City of Philadelphia, and Kathy Boockvar,
in her official capacity as Secretary of the Commonwealth of Pennsylvania,

Respondents,

AFFIDAVIT OF SERVICE

I, Johanna Juris, of lawful age, being duly sworn, upon my oath state that I did, on the
29% day of October, 2020, send out from Minneapolis, Minnesota, 14 packages containing 3
copies of the Emergency Application for an Injunction Pending Appellate Review in the above
entitled case. All patties required have been served by Priority Mail. Packages were plainly
addtessed to the following:
Claire Ann Blewitt
Dikworth Paxson LLP
1500 Market Street, Suite 3500 E,
Philadelphia, PA 19123
Jetty R. Desiderato
Dilworth Paxson LLP

1500 Market Street, Ste 3500E
Philadelphia, PA 19102
Elizabeth A. Dupuis
Babst Calland PA

330 Innovation Blvd.
Suite 302

State College, PA 16803

Ronald T Elliott

Dillon McCandless King Coulter & Graham,
128 W. Cunningham Street

Butler, PA 16001

Timothy James Ford

Dilworth Paxson LLP
Dilworth Paxson LLP

1500 Market Street, Suite 3500e
Philadelphia, PA 19102

Terence M Grugan

Ballard Spahr LLP

1735 Market Street, 51st Floor
Philadelphia, PA 19103

Michele D. Hangley

Hangley Aronchick Segal Pudlin& Schiller
One Logan Squate, 27th Floor
Philadelphia, PA 19103-6933

Timothy D. Katsiff

Ballard Spahr LLP

1735 Market Street, 51st Floor
Philadelphia, PA 19103-2217

 

Molly E Meacham

Babst, Calland, Clements and Zomnir, P.C
603 Stanwix Street, Sixth Floor

‘Two Gateway Center

Pittsburgh, PA 15222

Stephen Moniak

PA Office of Attorney General

Civil Law Division/Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17112
Edwatd D, Rogets
Ballard Spahr LLP
1735 Market Street

Ste 51st Floor
Philadelphia, PA 19103

Jordan P, Shuber

Dillon McCandless King Coulter & Graham,
128 West Cunningham Street

Butler, PA 16001

Elizabeth Wingfield

Ballard Spahr LLP

1735 Market Street, 51st Floot
Philadelphia, PA 19103

Robert A Wiygul

Hangley Aronchick Segal Pudlin & Schille
One Logan Squate, 27th Floor
Philadelphia, PA 19103

On behalf of:

Erick G. Kaardal

Mohtman, Kaardal & Erickson, P.A.
150 S 5th St., Ste 3100

Minneapolis, MN 55402

Thomas W, King, III

Dillon McCandless King Coulter & Graham
128 West Cunningham Street

Buter, PA 16001

Thomas Eric Breth

Dillon McCandless King Coulter & Graham, f
128 West Cunningham Street i

Butler, PA 16001 \. \ \ 0
Wide Nay

Subscribed and sworn to before me
this 29th day of October, 2020.

Notary Public g

 

 

   
     

Notary Public-Minnesota
My Commission Expires Jan 31, 2025
